L.

111

r’

n ^

No.
— v
Supreme Court, U.S.
FILED

In The Supreme Court of
the United States of America

FEB 1 0 2021
OFFICE OF THE CLERK

MICHAEL RAMON OCHOA,
Petitioner, pro se,
v.
DR. ERIN RUBIN,
Respondent, pro se.

On Petition for a Writ of Certiorari
To The Court of Civil Appeals of the State of Oklahoma
at DF-117153..

PETITION FOR WRIT OF CERTIORARI

Michael Ramon Ochoa
Petitioner, pro se
58 West Portal Ave #218
San Francisco, CA 94127
(415) 373-2172
michaelochoa@mac.com
February 18, 2021

\

1

QUESTIONS PRESENTED
1.

The questions posed in the preceding course of appellate actions should be

regarded as if entered here in their entirety.1
2.

Is Exhibit G. Oklahoma Conversations a complete, consistent and coherent

model of the facts of this case? Were those facts already cognizable to this Court and
to federal law enforcement dejurel de facto?
3.

Do the service history as well as the content of 11-07-16 Motion for Custody and

Relief demonstrate a “legitimate purpose” per 22 O.S. §60?
4.

Were U.S. Constitution Article IV Section I and Amendment I adequately

raised before both the trial and appellate courts between 11-07-16 and 11-07-20?
5.

Were my words and deeds those of a malicious and dangerous, ex-spouse?

Or those of the proudest “Sooner” parent protecting my beloved ninas perdidas?
6.

Does a search of the Linearized Root Data for “Hispanic” or “Mexican”

reveal any elements of race or gender profiling in this case?
7.

Did the conviction and removal of Judge Kendra Coleman for “oppression in

office” prejudice the final disposition of this case?

1 See attached Exhibit H. Questions orAimotaa

11

LISTS OF PARTIES AND RELATED PROCEEDINGS
Contact information for the petitioner is on the cover. The complete list of
respondents is attached as Exhibit A. Parties. A list of all proceedings in state and
federal court which directly arise from the same 250 Root Facts are attached as Exhibit
H. Tterns of Judicial Notice.

iii
TABLE OF CONTENTS
Page
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE PETITION

4

CONCLUSION

5
------

INDEX OF APPENDICES
Appendix A. Decision and Opinion of State Court of Appeals Affirming Order
04-09-20 AFFIRMED

App.1-5

Appendix C. Decisions of State Trial Court on Appeal
05-29-18 Emergency Order of Protection.............................
08-03-18 Order Continuing Emergency Order of Protection
02-01-19 Motion to Vacate STRICKEN to be RESET......

.App.6-12
App.13
.App.14

Appendix D. Decisions of State Supreme Court Denying Review
09-21-20 Petition for Certiorari DENIED........... .
10-21-20 Mandate to Affirm 04-09-20 Judgement

App.15
,App.l6

Exhibits Dashboard

App.17

Exhibits A-K

App. 18-29

IV

TABLE OF AUTHORITIES
Oklahoma Statutes
22 O.S. §60 Protection from Domestic Abuse Act

h2

U.S. Supreme Court Cases
U.S. Supreme Court 12-10508 Ochoa v. Rubin

5

U.S. Statutes and Constitution
28 U.S.C. §1257(a) State courts; certiorari

1

U.S. Constitution Article IV. Section I. Full Faith and Credit..

i,2

U.S. Constitution Amendment I Free Exercise Clause

i,2

1
ijjt£Qf3ia£o|j£vo'u yag xoD ymy.ov ol avOpconoi, oux exovxeg oxi yevcovxai, eg oXiytoQiav
ixQajcovTo xai iegdov xai oaioov o/xotcoq. Thuc. 2.52

PETITION FOR WRIT OF CERTIORARI
Petitioner prays that a writ of certiorari issue to review the judgements below.

—♦—
OPINIONS BELOW
The orders and opinions of the highest state court to review the merits of this
case appear at App.1-5 as Appendix A. The orders of the trial court appear at App.6-14
as Appendix B.

—+„
JURISDICTION
The date on which the highest state court decided this case was 09-21-20.
Rehearing was not requested. Copies of that decision appear at App.15-16 as Appendix
C. Time for filing this petition was extended to 150 days by this Court’s 03-19-20
Order. Per this Court’s 04-15-20 Order, this petition has been formatted under the
standards set by Rule 33.2. The jurisdiction of this Court is invoked under 28 U.S.C.
§1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Constitutional and Statutory provisions previously presented to this Court
should be regarded as if entered here in their entirety, especially:1
U.S. Constitution Article IVS1 Full Faith and Credit
Full Faith and Credit shall be given in each State to the public Acts, Records,
and judicial Proceedings of every other State. And the Congress may by general Laws
prescribe the Manner in which such Acts, Records and Proceedings shall be proved, and
the Effect thereof.
Also:
22 O.S. §60.1(5) Protection from Domestic Abuse Act
"Harassment" means a knowing and willful course or pattern of conduct by a
family or household member or an individual who is or has been involved in a dating
relationship with the person, directed at a specific person which seriously alarms or
annoys the person, and which serves no legitimate purpose.
and:
U.S. Constitution Amendment I Freedom of Expression
Congress shall make no law respecting an establishment of religion, or
prohibiting the free exercise thereof; or abridging the freedom of speech, or of the press;
or the right of the people peaceably to assemble, and to petition the government for a
redress of grievances.

1 See attached Exhibit H. U.S. Supreme Court Conversations

3

STATEMENT OF THE CASE
This U.S. Supreme Court is cognizant of the 250 Root Facts.2
On 11-07-16 I publicly begged the courts and federal law enforcement for relief
for myself and for my beloved ninas perdidas.3 That same information was sent to local
law enforcement and to the fiduciary leaders of the institutions thought to be harboring
the Respondent as she fled civil suit and criminal accusations in Allegheny County, Pa..
On that same day, 11-07-16, I submitted my doctoral dissertation to Tulane
University.4
If the agents served on 11-07-16 are nodes and the service and replies are edges,
then the graph of the meta-data shows who knew what, when and what they did or did
not do about it. Comparing that graph to the internal data of each of those agencies
would correct my inadvertent errors as well as reveal critical breaks in the truth
networks which inform and empower our great Republic.
Quod Erat Demonstrandum

2 See https://www.academia.edu/44185383/Root_Facts?souree=swp_share
\See https://drive.google.com/file/d/lxnboNplaZvF4bzt27LwXQfav9n4rFlkf/view?usp=sharing
4 See the most recent updated version: https://www.academia.edu/
44185128/ll_07_16_A_Philosophical_and_Mathematical_Model_of_Truth_or_NewOrganon?
source=swp_share

4
REASONS FOR GRANTING THE PETITION
On 11-07-16 our beloved United States of America was beset by an existential
crisis involving information, belief and even our shared sense of reality. Unfortunately,
the attention of this Court, as well as the other powers of state, have since been
enthralled by the voice of Thrasymachus, the prince of lies. A better alternative is to
turn your attention around to those honest and loyal citizens who have toiled to make
their gentle voices heard concerning matters of justice for us all, thereby restoring the
primacy of truth in public discourse.

5
CONCLUSION
By granting review, this Court will gently disabuse the Oklahoma Courts of
their errors through the use of universalizable, modern tools of reasoning, which respect
the precise words, best intentions and private faiths of the ancient Founders. This
petition for a writ of certiorari should thus be granted. Then, as I promised the late,
Hons. Antonin Scalia and Ruth Bader Ginsburg:
“Finally, by merely allowing yourselves to be seen looking in my direction, you
will effect immediate, transformative good for all, while long being remembered as just
and wise and merciful.” - 10-2U-13 U.S. Supreme Court 12-10508
Terras Irradientl

Michael Ragron Ochoa
Petitioner, pro se
58 West Portal Ave #218
San Francisco, CA 94127
(415) 373-2172
michaelochoa@mac.com
February 18, 2021

